                       UNITED STATES DEPARTMENT OF EDUCATION

                                    OFFICE OF INSPECTOR GENERAL

                                         61 FORSYTH STREET, ROOM 18T71 

                                             ATLANTA, GEORGIA 30303


        Telephone: (404) 562-6470                                          Fax: (404) 562-6509



MEMORANDUM

DATE:          November 24, 2003

TO:            Jack Martin
               Chief Financial Officer
               Lead Action Official

               Sally Stroup        

               Assistant Secretary      

               Office of Postsecondary Education     


FROM:          J. Wayne Bynum               /s/ J. Wayne Bynum
               Regional Inspector General for Audit
               Office of Inspector General

SUBJECT:       FINAL AUDIT REPORT
               North Alabama Center for Educational Excellence’s Administration of the
               TRIO Programs Needs Improvement
               Control Number ED-OIG/A04-D0001


You have been designated as the action officials responsible for the resolution of the findings
and recommendations in the attached final report. We have also provided a copy to the auditee
and to your Audit Liaison Officers.

The Office of Inspector General is required to review and approve your proposed Program
Determination Letter (PDL) and the Audit Clearance Document (ACD) before the PDL is
forwarded to the auditee. Please provide these documents for review, electronically if you wish
or by mail, to:

               J. Wayne Bynum

               Regional Inspector General, Region IV 

               U.S. Department of Education        

               Office of Inspector General 

               61 Forsyth Street, Room 18T71 

               Atlanta, GA 30303 

Jack Martin and Sally Stroup                                                            2



In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved. In
addition, any report unresolved after 180 days from the date of issuance will be shown as
overdue in our reports to Congress.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions, please contact me at 404-562-6477 or Assistant Regional Inspector
General Mary Allen at 404-562-6465.



Attachment
                      UNITED STATES DEPARTMENT OF EDUCATION

                                   OFFICE OF INSPECTOR GENERAL

                                       61 FORSYTH STREET, ROOM 18T71 

                                           ATLANTA, GEORGIA 30303


       Telephone: (404) 562-6470                                            Fax: (404) 562-6509

                                       November 24, 2003

Dr. Harold G. Dickerson
President/Executive Director
North Alabama Center for Educational Excellence
1515 Sparkman Drive, NW
Huntsville, AL 35816


Dear Dr. Dickerson:

Enclosed is our final audit report, Control Number ED-OIG/A04-D0001, entitled North Alabama
Center for Educational Excellence’s Administration of the TRIO Programs Needs Improvement.
This report incorporates the comments you provided in response to the draft report. If you have
any additional comments or information that you believe may have a bearing on the resolution of
this audit, you should send them directly to the following Education Department official, who
will consider them before taking final Departmental action on this audit:

               Jack Martin

               Chief Financial Officer      

               U.S. Department of Education    

               400 Maryland Avenue, SW, Room 4E313

               Washington, DC 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,

                                             /s/ J. Wayne Bynum
                                             J. Wayne Bynum
                                             Regional Inspector General for Audit
                                             Region IV
Enclosure
   North Alabama Center for Educational Excellence’s 

 Administration of the TRIO Programs Needs Improvement 



                                   FINAL AUDIT REPORT 





                                            ED-OIG/A04-D0001 

                                              November 2003



Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                                Office of Inspector General
Department’s programs and operations.                                         Atlanta, Georgia
  Statements that managerial practices need improvements, as well as
  other conclusions and recommendations in this report, represent the
     opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate Department
                           of Education officials.


 In accordance with the Freedom of Information Act (5 U.S.C. § 552),
    reports issued by the Office of Inspector General are available to
   members of the press and general public to the extent information
        contained therein is not subject to exemptions in the Act.
                         TABLE OF CONTENTS


                                         Page
EXECUTIVE SUMMARY.………………………………………………………………1

AUDIT RESULTS.………………………………………………………………………..3

      Finding No. 1 - NACEE Improperly Paid For Rental Space Owned
                      by the Executive Director………………………………………3
      Recommendations ..………………………………………………………………4

      Finding No. 2 - NACEE Used TRIO Funds to Pay Performance Awards
                      Without an Institutional Award Plan ....………………………5
      Recommendations…………………………………………..…………………….6

      Finding No. 3 - NACEE Lacked Documentation for a Travel
                      Expenditure…………………………………………………..…6
      Recommendations………………………………………………………………...7

      Finding No. 4 - NACEE Failed to Maintain Activity Reports to Support
                      the Executive Director’s TRIO Salary Distribution………….8
      Recommendations ..………………………………………………………………9

      Finding No. 5 - NACEE Lacked Documentation to Support Reported
                     Achievements...…..……………………………………………..10
      Recommendation.………………………………………………………………..12

      Finding No. 6 - NACEE Inaccurately Reported TRIO Program
                     Objectives and Achievements…………………………………12
      Recommendation………………………………………………………………..14

      Finding No. 7 - NACEE Did Not Submit OMB Circular A-133 Audits……..14
      Recommendations…………………………………………………………….…15

BACKGROUND ..………………………………………………………………………16

OBJECTIVES, SCOPE, AND METHODOLOGY ..…………………………………16

STATEMENT ON MANAGEMENT CONTROLS ..………………………………...18

Attachment A - Lack of Documentation and Inaccurate Reporting ..….……………19

Attachment B – NACEE’s Written Response to the Draft Report ..…....……………22


ED-OIG/A04-D0001              FINAL REPORT                             Page i
                             EXECUTIVE SUMMARY


The North Alabama Center for Educational Excellence (NACEE) is a non-profit corporation that
provides TRIO program services to participants in Northern Alabama. The purpose of the audit
was to determine whether NACEE administered the Federal TRIO programs in accordance with
Title IV, Section 402A of the Higher Education Act of 1965, as amended, and the Education
Department Grants and Administration Regulations (EDGAR). Specifically, we determined
whether NACEE adhered to the TRIO program compliance requirements regarding (1) the
accounting for Federal funds, (2) program expenditures, (3) participant eligibility,
(4) performance objective achievements, and (5) timely submission of performance and audit
reports. The audit included award years 2000-2001 and 2001-2002 for the following four TRIO
programs: Educational Opportunity Center (EOC), Educational Talent Search (ETS), Upward
Bound (UB), and Upward Bound Math & Science (UBMS).

NACEE violated the conflict of interest regulations regarding the payment for rental space at its
central office. In March 1996, a corporation owned in part by the Executive Director and his
spouse purchased the building and property that NACEE rented as its central office location.
During the period May 1996 through September 2002, NACEE paid $484,847 in rent to this
corporation. TRIO program funds were used to pay the rent.

TRIO funds were used to pay performance awards to employees without an established
institutional award plan. NACEE improperly used leftover funds allocated for supplies and
salaries to pay the awards. TRIO funds totaling $63,500 were improperly used to pay for the
employee performance awards during award years 2000-2001 and 2001-2002. These funds
could have been used to provide services to program participants.

NACEE lacked documentation for one expenditure. NACEE could not provide documentation
to fully support a $9,113 check written to the Executive Director for meal reimbursements.

NACEE failed to maintain activity reports to support the Executive Director’s TRIO salary
distribution. The Executive Director’s cumulative salary for award years 2000-2001 and 2001-
2002 was $324,164. Without activity reports, NACEE cannot document that the Executive
Director’s salary was distributed and supported based on time actually spent on each grant.

TRIO program achievements reported in the 2000-2001 and 2001-2002 performance reports
were not adequately supported. NACEE did not have adequate written policies and procedures
to maintain supporting documentation for services provided to participants. In addition, the EOC
and ETS performance reports did not always accurately represent the established performance
objectives. NACEE could not identify the participants that composed the numbers reported in
the performance reports. As a result, NACEE cannot assure the Department that they actually
provided the services reported. The Department relies on reported performance data to
determine whether a grantee is accomplishing its grant objectives and to determine funding.




ED-OIG/A04-D0001                   FINAL REPORT                               Page 1 of 33
NACEE did not ensure that Office of Management and Budget (OMB) Circular A-133 audits
were submitted to the Federal Audit Clearinghouse. The Federal Audit Clearinghouse did not
have any record of NACEE submitting any A-133 audits. Without receiving the audit reports,
the Department lacks information to determine whether NACEE is in compliance with the
Department’s financial and program regulations.

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to return:

   • 	 $484,847 to the Department for improper rental payments;
   • 	 $63,500 for unauthorized performance awards paid to NACEE employees;
   • 	 $4,873 for an unsupported payment made to the Executive Director for meals 

       reimbursement; and 

   • 	 $324,164 in unsupported salary costs, or submit documentation to support the amount of
       time the Executive Director spent working on each TRIO program.

We also recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary
for Postsecondary Education, require NACEE to:

   • 	 Discontinue using TRIO funds to pay for rent at the central office location;
   • 	 Ensure that any future employee performance awards are based on an institutional award
       plan;
   • 	 Establish management controls
           o 	To ensure that adequate documentation is maintained to support allowable costs
               and
           o 	For timely submitting completed OMB A-133 audits to the Federal Audit
               Clearinghouse; and
   • 	 Establish policies and procedures
           o 	For creating and maintaining activity reports to support the Executive Director’s
               salary distributions to the TRIO programs,
           o 	To ensure that records are maintained for the services provided to participants to
               clearly demonstrate the specific educational benefits that participants receive, and
           o 	To ensure that TRIO program objectives and achievements are accurately
               reported.

Based on the deficiencies identified in this report, we also recommend that the Chief Financial
Officer, in conjunction with the Assistant Secretary for Postsecondary Education, take
appropriate action pursuant to 34 C.F.R. § 74.62 to protect future EOC, ETS, UB, and UBMS
grant funds.

In its written response to the draft report, NACEE did not agree with all of the findings and
recommendations. We summarized NACEE’s written response after each finding and included
the response as Attachment B to this report. NACEE also provided supporting documentation
with its written response, which is available upon request. Our comments to the written response
are included after each finding.



ED-OIG/A04-D0001                   FINAL REPORT 	                             Page 2 of 33
                                   AUDIT RESULTS


Our audit objective was to determine whether NACEE administered the Federal TRIO programs
in accordance with Title IV, Section 402A of the Higher Education Act of 1965, as amended,
and EDGAR. Specifically, we determined whether NACEE adhered to the TRIO program
compliance requirements regarding (1) the accounting for Federal funds, (2) program
expenditures, (3) participant eligibility, (4) performance objective achievements, and (5) timely
submission of performance and audit reports.

We did not identify compliance problems with the accounting for Federal funds, participant
eligibility, or timely submission of performance reports. However, we identified problems with
NACEE’s compliance with program expenditures, performance objective achievements, and
submission of audit reports. The audit results are outlined in Findings 1 through 7.

Finding No. 1 - NACEE Improperly Paid for Rental Space Owned by the
                Executive Director
NACEE violated conflict of interest regulations regarding the payment for rental space at its
central office. The Executive Director said it was his interpretation of the regulations that
NACEE could make building space rent payments as long as its fiscal agent (Alabama A&M)
did not own the property. NACEE paid $484,847 in rent to a corporation that was owned, in
part, by the Executive Director and his spouse.

The regulations at 34 C.F.R. § 75.525(a) and (b) (1995) state:

   A grantee may not permit a person to participate in an administrative decision
   regarding a project if:
      (1) The decision is likely to benefit that person, or a member of his or her 

      immediate family; and 

      (2) The person:
          (a) Is a public official; or
          (b) Has a family or business relationship with the grantee.

   A grantee may not permit any person participating in the project to use his or
   her position for a purpose that is--or gives the appearance of being--motivated
   by a desire for a private financial gain for that person or for others.

Since 1996, NACEE improperly used TRIO funds to pay for rental space for its central office.
Rental payments were made to American Business, Education, and Industrial Systems, Inc.
(ABEIS). However, the NACEE Executive Director was part owner of ABEIS. The Executive
Director incorporated ABEIS in 1977 with his spouse and a former NACEE Assistant Director.
In March 1996, ABEIS purchased from T&C Builders, Ltd., the building and property that
NACEE rented for its central office at 1515 Sparkman Drive in Huntsville, Alabama. Both the


ED-OIG/A04-D0001                   FINAL REPORT                               Page 3 of 33
Executive Director and the managing partner for T&C Builders, Ltd., stated that ABEIS was a
property management company. The Executive Director said he did not believe that making
payments to ABEIS was a conflict of interest.

The Executive Director and his spouse financially benefited when NACEE paid rent for space in
which they had a personal interest. From May 6, 1996, to September 12, 2002, NACEE paid
ABEIS $484,847 in rental payments. TRIO funds were used for these rental payments. The
September 2002 payment covered the period September 2002 through August 2003.

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

1.1   Return $484,847 to the Department for the improper rental payments.

1.2   Discontinue using TRIO funds to pay rent for the current central office location.

NACEE RESPONSE

In its written response to the draft report (see Attachment B), NACEE agreed with the finding.
The response stated that no present NACEE employee was aware of any ownership interest in
ABEIS on the part of the Executive Director, or that the rental payment of Federal TRIO funds to
ABEIS constituted a violation of regulations. The response stated that any action with respect to
the recommendations must await the resolution of the U.S. Attorney’s investigation and
disposition of any criminal complaint. NACEE stated that it has no funds from which to make
payment of the amount asserted, and questions its corporate liability for the stated amount or any
amount related to the asserted violation.

Pending resolution of the matter before the U.S. Attorney, NACEE recommended that (1) the
Department restore funding to NACEE with respect to all TRIO grants, (2) the Department
authorize NACEE to establish a non-interest bearing escrow account with its fiscal agent
(Alabama A&M) or with a certified public accounting firm to receive and hold all annual rental
payments due ABEIS pending resolution of the matter with the U.S. Attorney, and determination
of any funds due to the Department/U.S. Treasury, or (3) the Department could withhold an
amount equal to the annual rental payment due to ABEIS under the current lease agreement
pending resolution of the matter with the U.S. Attorney and the Education Department Inspector
General. Delay in insolating the matter before the U.S. Attorney from the program
administration concerns in Findings 2-7 could result in the attrition of NACEE staff and the
denial of services to eligible program participants.

OIG COMMENTS

As indicated in the NACEE response, this issue was referred to OIG Investigation Services for
review. The use of TRIO funds to pay for rental space owned by the Executive Director is under




ED-OIG/A04-D0001                    FINAL REPORT                              Page 4 of 33
review by the U.S. Attorney, which must be completed before the above audit recommendations
can be resolved.

NACEE concurred that TRIO funds were improperly used to pay for building rental space that
was owned by the Executive Director. According to NACEE’s TRIO grant application, the
Executive Director is an employee “operating under the guidelines established by the Board of
Directors and . . . has full authority in the execution of the project.” The grant application also
states that “[t]he overall responsibility for the operation of NACEE is given to the Executive
Director.” The Department’s conflict of interest regulation at 34 C.F.R. § 75.525 states that a
grantee may not permit a person to participate in an administrative decision regarding a project if
the decision is likely to benefit that person. NACEE violated the regulations by allowing the
Executive Director to make rental payments to a company from which he received benefits.

The corrective actions proposed by NACEE would continue to fund rental payments to ABEIS
by using an escrow account or a withholding funds method. We do not agree with either method
because it could result in the continued use of TRIO funds to make improper rent payments to
ABEIS. We did not change our finding and recommendations.

Finding No. 2 - NACEE Used TRIO Funds to Pay Performance Awards
                Without an Institutional Award Plan
NACEE used TRIO funds allocated for supplies and salaries to pay employee performance
awards. The performance awards were not based on an institutional award plan. As a result,
TRIO funds totaling $63,500 were improperly used to pay for employee performance awards
during award years 2000-2001 and 2001-2002.

The regulations at 34 C.F.R. § 74.27(a) (2000) state:

   Allowability of costs are determined in accordance with the cost principles 

   applicable to the entity incurring the costs . . . . For the cost of a private 

   nonprofit organization other than (1) an institution of higher education; (2) a 

   hospital; or (3) an organization named in OMB Circular A-122 as not subject 

   to that circular, use the principles in OMB Circular A-122. 


OMB Circular A-122, Selected Items of Cost, paragraph (7)(i) (1998) states:

   Incentive compensation to employees based on cost reduction, or efficient 

   performance, suggestion awards, safety awards, etc., are allowable to the 

   extent that the overall compensation is determined to be reasonable and such 

   costs are paid or accrued pursuant to an agreement entered into in good faith 

   between the organization and the employees before the services were 

   rendered, or pursuant to an established plan followed by the organization so 

   consistently as to imply, in effect, an agreement to make such payment. 


During award years 2000-2001 and 2001-2002, NACEE used TRIO funds to pay performance
awards to NACEE employees without an established institutional plan. When we asked for a


ED-OIG/A04-D0001                    FINAL REPORT                              Page 5 of 33
copy of the institutional plan for performance awards during the audit, NACEE did not have one.
The NACEE office management staff developed criteria for making the performance awards
after we requested it. In addition, the Departmental TRIO program officer said the institutional
plan had not been submitted for review.

NACEE did not follow the requirement to establish an institutional plan for paying performance
awards. The NACEE Office Manager stated that TRIO funds allocated for supplies and salaries
were leftover at the end of the year, and it was decided to pay employee performance awards
from the leftover funds. As a result, TRIO funds totaling $63,500 were improperly used to pay
for employee performance awards during award years 2000-2001 and 2001-2002. These funds
could have been used to provide services to potential participants.

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

2.1   Repay $63,500 for unauthorized performance awards paid to NACEE employees.

2.2   Ensure that any future performance awards are based on an institutional award plan.

NACEE RESPONSE

NACEE did not agree with the finding and recommendations. NACEE stated that it followed
the guideline inasmuch as this is an allowable cost and followed the guideline as set by its fiscal
agent (Alabama A&M), which provides that “Employees who have reached the maximum step
in the position classification schedule will receive a bonus based on a percentage if so
recommended by the supervisor on performance evaluation reports.” NACEE has since
established an independent performance award plan to be submitted to the Departmental
Program Officer for approval, and included in the newly revised staff handbook.

OIG COMMENTS

NACEE was not an official sub-entity of its fiscal agent (Alabama A&M) and did not have a
performance plan in effect at the time the awards were paid. The performance award costs are
allowable only if the awards were based on an established performance award plan. Per its
response, NACEE has established a performance award plan that will be submitted to the
Departmental Program Officer for approval. The Department’s approval would apply to future
award costs, not past costs. We did not change our finding and recommendations.

Finding No. 3 - NACEE Lacked Documentation for a Travel Expenditure
NACEE did not have receipts to support a reimbursement paid to the Executive Director for
meals for a TRIO program trip in July 2002. NACEE’s fiscal agent (Alabama A&M) was
unable to locate the receipts and NACEE did not keep a copy of the receipts. The fiscal agent
did not follow its established procedures for obtaining required documentation prior to payment.


ED-OIG/A04-D0001                    FINAL REPORT                               Page 6 of 33
As a result, there was no documentation to fully support a $9,113 check paid to the Executive
Director for program participant meals during a trip. In response to the draft report, NACEE
provided meal receipts totaling $4,240. We adjusted our recommendation to reflect these
receipts.

The regulations at 34 C.F.R. § 74.53(b) (2001) state that “[f]inancial records, supporting
documents, statistical records, and all other records pertinent to an award shall be retained for a
period of three years from the date of submission of the final expenditure report . . . .”

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

3.1 	 Repay $4,873 for the unsupported payment made to the Executive Director for meal
      reimbursement.

3.2 	 Establish management controls to ensure that adequate documentation is maintained to
      support allowable costs.

NACEE RESPONSE

NACEE agreed that all receipts for the cited trip were not accounted for during the audit.
NACEE said the Business Office was going through a reconstruction process during this time
and some documents were not readily available for review. Each chaperon on the trip was issued
money for each participant’s breakfast, lunch, and dinner for each day. Each participant and
chaperon would sign each day for his/her meal money and the signed receipts were turned in to
the fiscal agent (Alabama A&M) at the end of the trip. NACEE located receipts totaling $4,558
and is confident that the remaining receipts will be located. Management has established
additional controls whereby additional copies of all documentation will remain with the fiscal
agent and NACEE. All revisions have been included in the program manual and staff handbook.

OIG COMMENTS

We reviewed the documentation that NACEE provided and determined that receipts existed for
80 participants. Each of the 80 participants had a receipt for meals in the amount of $53. Thus,
NACEE was able to provide meal receipts in the amount of $4,240 (80 x $53). We adjusted our
recommendation to require NACEE to repay $4,873 ($9,113 original questioned cost less $4,240
in meal receipts). NACEE’s additional controls whereby additional copies of all documentation
will remain with the fiscal agent and NACEE should help ensure that adequate documentation is
maintained to support allowable costs.




ED-OIG/A04-D0001                    FINAL REPORT 	                              Page 7 of 33
Finding No. 4 - NACEE Failed to Maintain Activity Reports to Support the
                Executive Director’s TRIO Salary Distribution
NACEE did not maintain activity reports to show the amount of time the Executive Director
spent working on the four TRIO programs. As a result, there was no support for the distribution
of the Executive Director’s salary totaling $324,164 for award years 2000-2001 and 2001-2002.

OMB Circular A-122, Selected Items of Cost, paragraphs 7m(l) and (2) (1998) states that “the
distribution of salaries and wages to awards must be supported by personnel activity reports, as
prescribed in subparagraph (2)” which states that “reports reflecting the distribution of activity of
each employee must be maintained for all staff members (professionals and nonprofessionals)
whose compensation is charged, in whole or in part, directly to awards.”

The Executive Director’s salary was paid with funds from each of the four TRIO programs. Our
review of the salary distribution for award year 2001-2002 revealed that the Executive Director
did not maintain personnel activity reports or other records to support his salary distribution from
the TRIO programs. It was NACEE policy for all full-time staff, including the Executive
Director, to sign in and out each day. The Executive Director did not maintain activity reports to
show the amount of time spent on each TRIO program. Since other NACEE employees were
assigned to work 100 percent of their time on one TRIO program, a distribution of their time
among programs was not required.

NACEE submitted separate budgets to the Department for each of the four TRIO programs. Our
review of the proposed TRIO budgets indicated that the Executive Director was to spend
148 percent of his time working on the TRIO programs. Table 4.1 shows the 2001-2002 budget
breakdown of the Executive Director’s salary and time by TRIO program.

         Table 4.1 - Executive Director’s Budgeted Salary and Time Commitment
          TRIO                  Salary per            Time Commitment per
          Program            Proposed Budget             Proposed Budget
          EOC                           $ 62,038                       40.00%
          ETS                              54,401                      50.00%
          UB                               30,470                      33.33%
          UBMS                             10,816                      25.00%
          Total                         $157,725                      148.33%

According to NACEE personnel action forms, the Executive Director’s annual salary for 2001-
2002 was actually $162,556, which was distributed between the four TRIO programs as shown
in Table 4.2.




ED-OIG/A04-D0001                    FINAL REPORT                                Page 8 of 33
                 Table 4.2 - Executive Director’s Actual Salary Distribution
                  TRIO                        Salary per Personnel
                  Program                         Action Forms
                  EOC                                             $ 66,648
                  ETS                                                55,269
                  UB                                                 22,758
                  UBMS                                               17,881
                  Total                                            $162,556

The Office Manager said NACEE was not aware of the regulation regarding maintenance of
activity reports. NACEE did not have procedures for creating or maintaining activity reports to
document the level of effort by the Executive Director on each grant. As a result, NACEE did
not have activity reports for the Executive Director for award years 2000-2001 and 2001-2002 in
which the Executive Director was paid $161,608 and $162,556, respectively.

NACEE did not have a detailed breakdown of the personnel cost category in its final approved
budget. Therefore, we could not determine whether the final annual salary and time percentages
for the Executive Director were reasonable. Without creating and maintaining activity reports to
support salary distributions, NACEE did not document that the Executive Director’s salary was
appropriately distributed and supported based on time actually spent on each of the four TRIO
programs.

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

4.1 	 Submit documentation to support the amount of time the Executive Director spent on each
      TRIO program, or return $324,164 in unsupported salary costs paid to the Executive
      Director during award years 2000-2001 and 2001-2002.

4.2 	 Establish polices and procedures for creating and maintaining activity reports to support the
      Executive Director’s and any other employees’ salary distributions when working on
      multiple TRIO programs.

NACEE RESPONSE

The NACEE staff has always been required to submit monthly activity reports to the Executive
Director highlighting the activities for the month. In addition, all coordinators had daily
interaction with the Executive Director regarding each program. The Executive Director also
conducted weekly joint coordinators meetings and program reviews. No activities were
implemented or executed, or communications transmitted without prior approval from the
Executive Director.

The response stated that while OMB Circular A-122 requires the distribution of salaries and
wages to awards to be supported by personal activity reports, time cards and documentation of


ED-OIG/A04-D0001                    FINAL REPORT 	                            Page 9 of 33
the work performed by professional and management staff is not required under the Fair Labor
Standards Act. Paragraphs 7m(l) and (2) of OMB Circular A-122 imposes a serious paper work
burden on executive and supervisory staff that administer Federal grants, despite the fact that
such employees frequently work in excess of a 40 hour week. NACEE has reconstructed, using
the Executive Director’s calendar and program staff activity reports, the Executive Director’s
monthly activity in support of each TRIO program. The fiscal agent (Alabama A&M) also
provided an accurate allocation of the Executive Director’s salary based on the actual time
committed (based on the proposed budget) to each project. This documentation not only
properly allocates the Executive Director’s time, but also justifies the hours committed to the
supervision of staff, project management, and community outreach in support of the TRIO
programs.

It has been the policy for staff members to maintain monthly activity reports. The NACEE staff
handbook has been revised to include monthly activity reports for the Executive Director.

OIG COMMENTS

Per EDGAR (34 C.F.R. § 74.27(a) (2000)), NACEE is required to follow the cost principles in
OMB Circular A-122, which requires that the distribution of salaries and wages to awards must
be supported by personnel activity reports. We reviewed the reconstructed monthly activity
reports provided by NACEE and could not determine the percentage of time the Executive
Director spent on each program. The fiscal agent’s (Alabama A&M) distribution of the
Executive Director’s salary was based on the salary distribution from each program and not the
actual time spent on each program. We did not change our finding and recommendations.

Finding No. 5 - NACEE Lacked Documentation to Support Reported
                Achievements
TRIO program achievements reported in the 2000-2001 and 2001-2002 performance reports
were not adequately supported. NACEE did not have adequate written policies and procedures
to maintain supporting documentation for services provided to participants. In addition, the
NACEE computer system used to track services provided to participants could not recreate the
information previously reported in the performance reports. As a result, the Department cannot
be sure that NACEE actually provided the services reported.

The regulations at 34 C.F.R. §§ 643.32(c) and § 644.32 (2000) state that “[f]or each participant, a
grantee shall maintain a record of . . . [t]he services that are provided to the participant; and . . .
[t]he specific educational progress made by the participant as a result of the services.”

The regulations at 34 C.F.R. § 74.53(b) (2000) state that “[f]inancial records, supporting
documents, statistical records, and all other records pertinent to an award shall be retained for a
period of three years from the date of submission of the final expenditure report . . . .”

Title IV, Section 402A(c)(2) of the Higher Education Act of 1965, as amended (1998), states that
“[i]n making grants under this chapter, the Secretary shall consider each applicant's prior
experience of service delivery under the particular program for which funds are sought.”


ED-OIG/A04-D0001                     FINAL REPORT                               Page 10 of 33
NACEE used its BLUMEN system to create performance reports submitted to the Department.
However, the system could not identify the specific students that received the services reported
in the performance reports (i.e., the system did not preserve historical data). Therefore, the
BLUMEN system could not be used to support the results reported in NACEE’s 2000-2001 and
2001-2002 performance reports.

NACEE conducted a manual review in an attempt to recreate the support for the 2000-2001 and
2001-2002 performance reports. Our review of this information revealed the following:

   • 	 NACEE did not maintain source documentation in EOC participants’ files for the 2000-
       2001 and 2001-2002 program years. In addition, for objectives 2, 4, and 6 in 2000-2001
       and 2001-2002, NACEE did not have documentation to support achievements. The
       participant files reviewed for each objective that did not have supporting documentation
       ranged from 8 to 54 percent. (See Table 5.1 in Exhibit A for details.)

   • 	 NACEE did not have documentation to support reported achievements for ETS
       objectives 4, 5, and 6 in 2000-2001 and 2001-2002. The participant files reviewed for
       each objective that did not have supporting documentation ranged from 9 to 73 percent.
       (See Table 5.2 in Exhibit A for details.)

   • 	 NACEE did not have documentation to support reported achievements for UB and
       UBMS objective 2 to increase participant grade point averages (GPA) by 0.05 percent for
       award years 2000-2001 and 2001-2002. The participant files reviewed for each objective
       that did not have supporting documentation ranged from 27 to 93 percent. (See Table 5.3
       in Exhibit A for details.)

NACEE lacked adequate written policies and procedures instructing personnel to maintain
supporting documentation for services provided to participants. NACEE procedures for
documenting EOC services for performance achievements did not require the maintenance of
supporting documentation of services in participant files. The EOC program coordinator stated
that NACEE received instructions from the Department that it was not necessary to maintain
supporting documentation of services provided; however, the coordinator did not provide
documentation to support this claim. NACEE documented that it provided services to
participants by recording service codes in the participants’ files. In some instances, NACEE was
able to contact high schools and colleges to obtain some supporting documentation. The
Department’s program officer for NACEE stated that source documentation must be maintained
by NACEE.

By not maintaining supporting documentation for services provided, the Department cannot be
ensured that NACEE actually provided the services reported. The Department relies on reported
performance data to determine whether a grantee is accomplishing its grant objectives and to
determine funding.




ED-OIG/A04-D0001                   FINAL REPORT 	                           Page 11 of 33
RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

5.1 	 Establish policies, procedures, and management controls to ensure that records are
      maintained for the services provided to participants to clearly demonstrate the specific
      educational benefit(s) that participants received.

5.2 	 Install a performance reporting system that will provide for the maintenance and recreation
      of historical data used to support the performance information reported to the Department.

NACEE RESPONSE

NACEE revised its procedures to show a paper trail of all services provided to each participant.
These revisions will be included in the revised staff handbook and program manual. The
established policies, procedures, and management controls will ensure that a paper record in
addition to the current coding procedure is established for each participant to clearly demonstrate
the specific educational benefit(s) that participants receive. NACEE indicted that it has reviewed
the necessary procedures required to strengthen its data management system to include a server
for historical data backup and on-site training for all staff members.

OIG COMMENTS

The revised policies, procedures, and management controls should help NACEE ensure that
proper documentation is maintained for each participant. We did not change our finding and
recommendations.

Finding No. 6 - NACEE Inaccurately Reported TRIO Program Objectives
and Achievements
We reviewed the reporting requirements for the EOC and ETS programs and found that the
performance reports did not always accurately represent the established performance objectives.
In addition, NACEE could not identify the participants that composed the numbers reported in
the performance report. The TRIO program coordinators said they were not aware that there was
a list of performance objectives approved by the Department or that they were required to use the
approved performance objectives as a guide to report program results. As a result, the
Department cannot be sure that NACEE actually provided the services reported.

The regulations at 34 C.F.R. § 74.51(d) (2000) state:

   When required, performance reports must generally contain, for each award,
   brief information on each of the following:
   (1) A comparison of actual accomplishments with the goals and objectives 

       established for the period, the findings of the investigator, or both. 

       Whenever appropriate and the output of programs or projects can be 



ED-OIG/A04-D0001                    FINAL REPORT 	                           Page 12 of 33
       readily quantified, this quantitative data should be related to cost data for
       computation of unit costs.
   (2) Reasons why established goals were not met, if appropriate.
   (3) Other pertinent information including, when appropriate, analysis, and 

       explanation of cost overruns or high unit costs. 


The regulations at 34 C.F.R. § 75.590 (2000) state:

   A recipient shall submit a performance report, or, for the last year of a project,
   a final report, that evaluates at least annually—
   (a) The recipient's progress in achieving the objectives in its approved 

       application;

   (b) The effectiveness of the project in meeting the purposes of the program; 

       and 

   (c) The effect of the project on participants being served by the project.

Title IV, Section 402A(c)(2) of the Higher Education Act of 1965, as amended (1998), states that
“[i]n making grants under this chapter, the Secretary shall consider each applicant's prior
experience of service delivery under the particular program for which funds are sought.”

We reviewed the reporting requirements for the EOC and ETS programs and noted numerous
discrepancies in the reported program objectives and achievements. The EOC and ETS
partnership agreements containing the Department’s approved performance objectives were
dated December 7, 1999.

Our review of the EOC objectives and reported results revealed that NACEE did not always
report the correct program objectives. For example, objective 4 for award year 2000-2001 and
objective 2 for award year 2001-2002 were reported as 38 percent and 66 percent, respectively;
however, the approved objective was 85 percent for both objectives. In addition, other
objectives were reported as met (either percentages or numbers completed); however, the
number of participant names provided to OIG did not agree with or in some cases support the
information in the performance report. (See Table 6.1 in Exhibit A for details.)

Our review of the ETS objectives and reported results also revealed that NACEE did not always
report the correct program objectives. For example, objectives 1 and 5 for award year 2001-
2002 were reported as 60 percent and 85 percent, respectively; however, the approved objectives
were 80 percent and 95 percent, respectively. In addition, other objectives were reported as met;
however, the number of participant names provided to OIG did not agree with or in some cases
support the information in the performance report. (See Table 6.2 in Exhibit A for details.)

The TRIO program coordinators said they were not aware that there was a list of approved
performance objectives received from the Department or that they were required to use the
performance objectives as a guide to report program results. We also found that staff made
miscalculations when adding the number of participants provided with services from each of
NACEE’s five office locations. The staff also said the BLUMEN system used to keep track of
services provided to participants had operating glitches, which caused queries to generate
inaccurate results.


ED-OIG/A04-D0001                    FINAL REPORT                               Page 13 of 33
As a result, NACEE’s TRIO performance reports did not accurately represent the established
performance objectives or program results. NACEE was not in compliance with regulations that
require actual achievements for established objectives to be reported. By not maintaining
supporting documentation for services provided, the Department cannot be sure that NACEE
actually provided the services reported. The Department relies on reported performance data to
determine whether a grantee is accomplishing its grant objectives and to determine funding.

RECOMMENDATION

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

6.1 	 Establish policies, procedures, and management controls to ensure that TRIO program
      objectives and achievements are accurately reported.

NACEE RESPONSE

NACEE did not agree that it inaccurately reported program objectives and achievements. The
response stated that NACEE had established additional policies, procedures, and management
controls to ensure that the TRIO program objectives and achievements are accurately reported.
The revisions are to be included in the revised staff handbook and program manual.

OIG COMMENTS

The establishment of additional policies, procedures, and management controls should help to
ensure that NACEE reports TRIO program objectives and achievements accurately. We did not
change our finding and recommendation.

Finding No. 7 - NACEE Did Not Submit OMB Circular A-133 Audits
NACEE did not follow EDGAR and OMB Circular A-133 regulations’ regarding the submission
of A-133 audits for non-profit organizations. Although NACEE had OMB Circular A-133 audits
performed, it did not ensure that the independent auditor submitted the reports to the Federal
Audit Clearinghouse. The Clearinghouse did not have any record of NACEE submitting any
A-133 audits. NACEE’s independent auditor stated that the FY 2000 report was filed with the
Clearinghouse, but not the FY 2001 report. The Executive Director said he was unaware of the
requirement to submit A-133 audits to the Clearinghouse. Without receiving the audit reports,
the Department lacks information to determine whether NACEE is complying with the
Department’s financial and program regulations.

The regulations at 34 C.F.R. § 74.26(a) (2000) state that “[r]ecipients and subrecipients that are
institutions of higher education or other non-profit organizations (including hospitals) shall be
subject to the audit requirements contained in the Single Audit Act Amendments of 1996
(31 U.S.C. 7501-7507) and revised OMB Circular A-133.”




ED-OIG/A04-D0001                    FINAL REPORT 	                           Page 14 of 33
OMB Circular A-133, Subpart C, section 320(a) (1997), states that “[t]he audit shall be
completed and submitted within the earlier of 30 days after receipt of the auditor's report(s), or
nine months after the end of the audit period, unless a longer period is agreed to in advance by
the cognizant or oversight agency for audit. Unless restricted by law or regulation, the auditee
shall make copies available for public inspection.”

RECOMMENDATIONS

We recommend that the Chief Financial Officer, in conjunction with the Assistant Secretary for
Postsecondary Education, require NACEE to:

7.1 	 Establish management controls to ensure that completed A-133 audits are submitted to the
      Federal Audit Clearinghouse.

7.2 	 Timely submit the completed FY 2000 and FY 2001 A-133 audit reports to the Federal
      Audit Clearinghouse.

Based on the deficiencies identified in this report, we also recommend that the Chief Financial
Officer, in conjunction with the Assistant Secretary for Postsecondary Education:

7.3 	 Take appropriate action pursuant to 34 C.F.R. § 74.62 to protect future EOC, ETS, UB,
      UBMS grant funds.

NACEE RESPONSE

NACEE stated that the OMB Circular A-133 reports were submitted annually by the audit firm
along with the fiscal agent reports. NACEE established management controls to ensure that
completed Circular A-133 reports are submitted to the Federal Clearinghouse annually. Annual
audit reports will be completed by the independent auditors and submitted to the Federal
Clearinghouse in a timely manner through NACEE. All previous requested years have been
mailed to the Federal Clearinghouse.

OIG COMMENTS

NACEE did not provide any evidence that the Federal Audit Clearinghouse received its FY 2000
and FY 2001 OMB Circular A-133 reports along with the fiscal agent reports. The proposed
management controls to submit annual A-133 audits to the Federal Audit Clearinghouse should
help to ensure that they submit reports on time.




ED-OIG/A04-D0001                    FINAL REPORT 	                            Page 15 of 33
                                     BACKGROUND


The North Alabama Center for Educational Excellence, Inc. (NACEE) is a non-profit
corporation that administers four TRIO programs (EOC, ETS, UB, and UBMS). NACEE serves
participants in 13 contiguous counties in Northern Alabama from one central office in Huntsville
and four extension offices located in Athens, Cullman, Decatur, and Scottsboro, Alabama.
NACEE began serving program participants in 1974.

NACEE received $1.8 million in TRIO grant funds for 2000-2001 and $1.9 million for 2001-
2002. Alabama A&M University served as NACEE’s fiscal agent by drawing, disbursing, and
recording grant expenditures and revenues.

The grant period for the EOC, UB, and UBMS programs was September 1, 1999, through
August 31, 2003, and the grant period for the ETS program was September 1, 1998, through
August 31, 2003. Thus, all four TRIO grants expired on August 31, 2003.

According to 34 C.F.R. § 74.62, if a recipient materially fails to comply with the terms and
conditions of an award, whether stated in a Federal statute, regulation, assurance, application, or
notice of award, the Secretary may take one or more of the following actions as appropriate in
the circumstances: “(1) Temporarily withhold cash payments pending correction of the
deficiency by the recipient or more severe enforcement action by the Secretary, (2) Disallow
(that is, deny both use of funds and any applicable matching credit for) all or part of the cost of
the activity or action not in compliance, (3) Wholly or partly suspend or terminate the current
award, (4) Withhold further awards for the project or program, (5) Take other remedies that may
be legally available.”


             OBJECTIVES, SCOPE, AND METHODOLOGY


The audit objective was to determine if NACEE administered the Federal TRIO programs in
accordance with Title IV, Section 402A of the Higher Education Act of 1965, as amended, and
EDGAR. Specifically, we evaluated whether NACEE adhered to the TRIO program compliance
requirements regarding (1) the accounting for Federal funds, (2) program expenditures,
(3) participant eligibility, (4) performance objective achievements, and (5) timely submission of
performance and audit reports. Audit coverage included September 1, 2000, through August 31,
2002 (award years 2000-2001 and 2001-2002).

To accomplish our objectives, we performed the following:

   • 	 Reviewed applicable regulations in EDGAR; 34 C.F.R. Parts 643, 644, and 645; and
       OMB Circular A-122.
   • 	 Contacted and obtained program information from TRIO officials in Washington, DC.


ED-OIG/A04-D0001                    FINAL REPORT 	                           Page 16 of 33
   • 	 Interviewed NACEE officials responsible for cash management, program expenditures,
       and program services.
   • 	 Interviewed Alabama A&M officials responsible for drawing down TRIO funds and
       recording and paying NACEE’s program expenditures.
   • 	 Reviewed the amounts and dates of TRIO grant receipts and expenditures to determine
       whether they were allowable and properly documented.
   • 	 Reviewed TRIO program participants’ eligibility.
   • 	 Reviewed grant objective achievements reported in annual program performance reports
       to determine whether they were properly documented and supported.
   • 	 Reviewed performance and audit reports to determine whether they were timely 

       submitted. 


We reviewed judgmental samples of each of the TRIO programs’ expenditures. We selected
10 expenditures for each of the EOC, ETS, and UB programs and 5 for the UBMS program. The
expenditures selected for review related to travel, awards, rent, contracts, supplies and
equipment, and printing. The sampled expenditures exceeded $100 for ETS, $300 for EOC and
UB, and $400 for UBMS.

We also selected a judgmental sample for equipment inventory. We reviewed 26 of 195 items,
from non-disposable items consisting of audio/visual equipment, furniture, computers, copiers,
and paper shredders. We selected items considered to be high cost.

For personnel expenses, we randomly selected 2 of 12 months of payroll. We reviewed all
NACEE employees’ payroll expenses for the months selected.

To review performance objective achievements, we randomly sampled participant files for the
four TRIO programs as follows:

   • 	 For the EOC, we reviewed three of four objectives for award year 2000-2001 that
       NACEE reported achievements and reviewed the four objectives for 2001-2002. We
       reviewed a random sample of 50 participants for each objective. The populations ranged
       from 1,199 to 7,145 participants.

   • 	 For ETS, we reviewed the five objectives that NACEE reported achievements for 2000-
       2001 and 2001-2002. We reviewed a random sample of the population for each
       objective. The samples ranged from 11 to 26 participants from populations that ranged
       from 43 to 222 participants. The total number of sampled participants was 175.

   • 	 For UB, we reviewed the five objectives that NACEE reported achievements for 2000-
       2001 and 2001-2002. We reviewed a random sample of the population for each
       objective. The samples ranged from 8 to 22 participants from populations that ranged
       from 12 to 86 participants. The total number of sampled participants was 152.

   • 	 For UBMS, we reviewed the four objectives that NACEE reported achievements for
       2000-2001 and 2001-2002. We reviewed a random sample of the population for each



ED-OIG/A04-D0001                   FINAL REPORT 	                          Page 17 of 33
       objective. The sampled populations ranged from 6 to 15 participants from populations
       that ranged from 11 to 58 participants. The total number of sampled participants was 88.

For participant eligibility, we selected the UB program and reviewed all of the participants’ files.
For timely performance report submissions, we reviewed the reports for all four programs.

During the audit, we used computer-processed data contained in NACEE’s BLUMEN
performance reporting system and Alabama A&M’s accounting system. We used award and
disbursement data from the Department’s Grants Accounting and Payment System (GAPS) to
corroborate information obtained from the Alabama A&M accounting system. We also
reviewed data from NACEE’s student participant files and used this data to verify achievements
reported to the Department. Based on these tests and assessments, we concluded that the
Alabama A&M accounting system data were sufficiently reliable for the purpose of our audit.
We also concluded that the NACEE BLUMEN system data were not sufficiently reliable for the
purpose of our audit.

Audit work was performed during the period November 2002 through March 2003. The findings
were discussed with the NACEE Executive Director and/or the Office Manager during the audit.
The audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.


            STATEMENT ON MANAGEMENT CONTROLS 


As part of the audit, we gained an understanding of the system of management controls, policies,
procedures, and practices applicable to NACEE’s administration of the TRIO programs. Our
assessment was performed to determine the level of control risk for the nature, extent, and timing
of substantive tests to accomplish the audit objectives. For the purpose of this report, we
assessed and classified the significant controls into the following categories: (1) the accounting
for Federal funds, (2) expenditure of Federal funds, (3) TRIO program participant eligibility,
(4) program performance achievement, and (5) submission of performance and audit reports.

Due to inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the management controls.
However, our overall assessment disclosed management control weaknesses in the expenditure
of funds, performance achievements, and submission of OMB Circular A-133 audit reports.
These weaknesses are discussed in the AUDIT RESULTS section of this report.




ED-OIG/A04-D0001                    FINAL REPORT                              Page 18 of 33
Attachment A - Lack of Documentation and Inaccurate Reporting


          Table 5.1 - EOC Reported Results Lacking Supporting Documentation
                No. Participants
                Reported in the    No. Participant                              No. Participant Files
 Year and                                            No. Participant Files
                 Performance       Names Provided                               with No Supporting
Objective No.                                             Sampled
                    Report             to OIG                                     Documentation
 2000-2001
 Objective 2          625               1,674                 50                       4 (8%)
 2000-2001
 Objective 4         4,015              6,345                 50                      27 (54%)
 2000-2001
 Objective 6         4,150              4,591                 50                      14 (28%)
 2001-2002
 Objective 2         1,674              1,199                 50                      7 (14%)
 2001-2002
 Objective 4         3,944              5,816                 50                      27 (54%)
 2001-2002
 Objective 5         9,675              7,154                 50                      11 (22%)
 2001-2002
 Objective 6         1,862              5,698                 50                      7 (14%)




           Table 5.2 - ETS Reported Results Lacking Supporting Documentation
                No. Participants
                Reported in the    No. Participant                              No. Participant Files
 Year and                                            No. Participant Files
                 Performance       Names Provided                               with No Supporting
Objective No.                                             Sampled
                    Report             to OIG                                     Documentation
 2000-2001
 Objective 4          43                 45                   11                      8 (73%)
 2000-2001
 Objective 5          43                 45                   11                       1 (9%)
 2000-2001
 Objective 6          43                 43                   11                       1 (9%)
 2001-2002
 Objective 4          95                 87                   22                      4 (18%)
 2001-2002
 Objective 5          88                 88                   22                      6 (27%)
 2001-2002
 Objective 6          45                 45                   11                       1 (9%)




ED-OIG/A04-D0001                   FINAL REPORT                              Page 19 of 33
Attachment A - Lack of Documentation and Inaccurate Reporting

                Table 5.3 - Inaccurate Reported UB and UBMS Performance Results
     Objective # 2.                              No. Participants                No.          No. Participants that
    Participants GPA                             Reported in the             Participants     GPA Did Not Increase
                                 Year
     Increased by .05                          Performance Report             Sampled.               by .05

UB                            2000-2001                   55                     14                   13 (93%)

UB                            2001-2002                   23                     12                    7 (58%)

UBMS                          2000-2001                   34                      9                    5 (56%)

UBMS                          2001-2002                   11                     11                    3 (27%)




                      Table 6.1 - Inaccurate Reported EOC Performance Results
                                                       No. Participants/Percentage              No. Participant
                                                             Reported in the                  Names/Percentages
           Objective                        Year          Performance Report                   Provided to OIG
2. High school seniors who
    graduated                            2000-2001                   625                              1,674
2. Graduated seniors stated
    percentage                           2000-2001                   0%1                               61%
4. Applied for postsecondary
    education                            2000-2001                  4,015                             6,345
4. Applied for postsecondary
    education stated percentage          2000-2001                  38%1                               76%
5. Assistance with financial
   aid                                   2000-2001                  7,9202                    Could not determine
6. Admitted to postsecondary
    education                            2000-2001                  4,150                             4,591
2. High school seniors who
    graduated                            2001-2002                  1,674                             1,199
2. Graduated seniors stated
    percentage                           2001-2002                  66%1                               83%
4. Applied for postsecondary
    education                            2001-2002                  3,944                             5,816
4. Applied for postsecondary
    education stated percentage          2001-2002                  100%1                              62%
5. Assistance with financial
   aid                                   2001-2002                  9,675                             7,154


1
    NACEE should have achieved 85 percent according to the Department’s approved objectives.
2
    NACEE reported the number of services provided, rather than the number of participants served as required by the
    approved objectives.


ED-OIG/A04-D0001                            FINAL REPORT                                    Page 20 of 33
Attachment A - Lack of Documentation and Inaccurate Reporting

5. Assistance with financial aid
   stated percentage                 2001-2002                 100%1                           76%
6. Admitted to postsecondary
   education                         2001-2002                 1,862                           5,698
6. Admitted to postsecondary
   education stated percentage       2001-2002                  75%3                           58%




Table 6.2 - Inaccurate Reported ETS Performance Results
                                                                No.
                                                      Participants/Percentage              No. Participant
           Objective                   Year               Reported in the                Names/Percentages
                                                       Performance Report                 Provided to OIG
1. Secondary participants
   served                           2000-2001                    302                           285
4. Participants applied for
   postsecondary education          2000-2001                     43                            45
5. Participants applied for
   financial aid                    2000-2001                     43                            45
1. Secondary school
   participants served              2001-2002                    272                           268
1. Secondary participants that
   continued in school              2001-2002                    177                           170
1. Secondary participants
   stated percentage                2001-2002                   60%4                           65%
3. High school dropouts
   served                           2001-2002                     3                             1
4. Participants applied for
   postsecondary education          2001-2002                     95                            87
5. Participants applied for
   financial aid stated
   percentage                       2001-2002                   85%5                           93%




3
  NACEE should have achieved 65 percent according to the Department’s approved objectives.
4
  NACEE should have achieved 80 percent according to the Department’s approved objectives.
5
  NACEE should have achieved 95 percent according to the Department’s approved objectives.




ED-OIG/A04-D0001                        FINAL REPORT                                  Page 21 of 33
Attachment B – NACEE’s Written Response to the Draft Report




      @                      The North Alabama
                             Center for Educational Excellence


         .\~.Y      Da ni"l, Jr.
       CI'oo!!u\"   tit"'"
                                                        September 19,2003

                    Mr. J. Wayne Bynum
                    Regionallnspcclor General for Audit
                    U. S. DEPARTMENT of EDUCATION
                    6 1 Forsyth Street Room 18T7 l
                    Atlanta, Georgia 30303

                    Dear Mr. Byn um:

                            Please find enclosed the response and comments of the Nonh Alabama Center for
                    Educational Excellence (NACEE) \0 the August 21, 2003 DRAFT Audit Repon (EO­
                    OIG1A04-DOOOI). We very rnuc::h appreciate your agreeing to clttend the lime for our
                    response until September 22. 2003. Our response to each o f the draft. lindings is being
                    sent to your o ffi ce via facsimile today and the original. plus exhibits is being forwarded
                    10 yo u by overnight messenger service (United Parcel Service) for delivery on Monday,
                    September 22. 2003.

                            As Chai nn an orlhe NACEE Advisory Board, NACEE shares your concern about
                    the seriousness of the potential "conlil CI of interesl" violation renected in Finding No. I.
                    We have recommended that an escrow vehicle be established at Alabama A&M
                    University, or with an independent audita.., or that the questioned rental payment for the
                    central office oDly be retained by the Department of Education, We belie\'e that this
                    approach would sep1ll1lte the resolution of Finding No. I, which may be delayed due to
                    the on-going investigation of th is matter by th e U.S. Attomey fo r the Northern District of
                    Alabama, from the other sil( findings. Sep1ll1ltion of the Finding No. I matter is cri ti cal to
                    restoration of the Federal TRIO Program funding for all five TRIO programs
                    administered by NACEE.

                           We are very concerned about the abi lity of the program to survive if the
                    Department continues 10 withhold granl funds.           NAC EE is awaiti ng fonnal
                    correspondence from the Department regarding ils decision to withhold funds . The
                    cscrow proposal reflected in NACEE's respo nse 10 Finding No. I is being raised wil h the
                    Department dirc:c:tly.




ED-OIG/A04-D0001                                  FINAL REPORT                                                Page 22 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                        Mr. J. Wayne Bynum    Page 2 of2 Pages September 19, 2003




                  Thank you again for your consideration for our comments and recommendations
           with regard to the DRAFT Audit Report. Ms. Evelyn Smith (256-372-4600) and
           Attorney William A. Blakey (2021289-3900) are available to respond to any questions
           you may have.


           Sincerely,


         ;+-Q        ·9"
         -:tJ:;:rr/an~
           Advisory Board Chair


           AD/eds

           c:   William A. Blakey. Esq.




ED-OIG/A04-D0001                          FINAL REPORT                                   Page 23 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                        North Alabama Center for Educational Excellence's
                                 Response to Draft Audit Report
                              Control Number ED-OiG/A04-DOOOI


        Finding No. I
        NACEE Improperly Pll id For Rental Space Owned bv the Exec utive Dire<: tor

                We concur with the findings

              Recommendation

        1.1     Return $484,847 to the Department for the improper rental payments.

        1.2.1   Discontinue using TRIO funds to pay rent (or the current central office location.

        Contact Person Responsible for Correctil'C Action

        Mr. Army L. Daniel, Jr., Advisory Board Chainnan
        Ms. Evel)1l Smith, Offiee Manllger
        Mr. Arthur L. Henderson, VP Business and Finance (Alabama A&M University)
        Wi lliam A. Blakey, Esq. (NACEE Le8al Counsel)
        Larry Oxendine, Director Federal TRIO Programs

        Correcti\·C' Action Proposed

        Finding No. I states a violation of 34 CFR 75.525 (a) and (b) and alleges conflict of interest
        behavior by the PresidentlExecutive Director that is presently under investigation by the U.S,
        Attorney for the Northern District of Alabama, i.e, that $484,847 in Federal TRIO Projcct funds
        were paid in rent to II corporation that may be owned in part by the President/Executive Director
        of NACEE. No present NACEE employee. other than possibly the Executive Director, was
        aware of any ownership interest in American Business, Education, and Industrial Systems, Inc.
        (ABElS) on the part of the PresidentlExecutive Director, or that the rental payment of Federal
        TRIO Project funds to ABElS constituted a violation of34 CFR 75.526 (a) and (b).

        1.1     Any action with respect to this recommendation must await the reso lution of the U.S.
                Anorney's investigation and the disposition of any criminal complaint, including th e
                detennination of guilt (or plea) and the imposition of punishment, including liability fo r
                restitution. NACEE has no funds from which to make payment of the amount asserted,
                and questions its corporate liability for the stated amount, or any amount related to the
                asserted violation.

        1.2     Pending resolution of the mailer before the U.S. Attorney, NACEE recommends that: ( I)
                th e Department of Education restore funding to NACEE with respect to all five Federal
                TRIO Program grants: (2) the Depanment authorize NACEE to establish a non-interest
                bearing escrow account with Alabama A & M University - to be under the control of the
                Chief FinanCial Offi~er of the University - or with Banks, Finley, and White, CPAs to
                receive and hold all'annual rental payments due ABElS pending resolution of the maner


                                                       . ,.




ED-OIG/A04-D0001                          FINAL REPORT                                              Page 24 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                          North Alabama Center for Educational Excellence 's
                                   Response to Draft Audit Report
                                Control Number ED-OIG/A04-DOOOl


                  with thc U.S. Attorney, and dctennination of any funds due to the DepanmentlU.S.
                  Treasury; or (3) Ihe Department could withhold an amount equal to the annual rental
                  payment due to ABElS under the current lease agreement pending resolution of this
                  mailer with the U.s. Allomey and the Education Department Inspector General.

        Anticipated Completion Date

        Implementation of the rC(!ommendation with regard to the establishment of an escrow accoun t
        could occur immediately, or within thiny (30) days. Delay in insolating the matter before the
        U.S. Al\orney from the program administration concerns in Findings 2-7 could resu lt in the
        attrition of NACEE staff and the denial of services to eligible program panicipants. This should
        be avoided at all costs and the highest priority assigned to protecting taxpayer funds from the
        questioned rental payment, and the restoration of TRiO grant funding to NACEE.

        Finding No. 2
        NACEE Used TRIO Funds to Pav Performa nce Awards Without an Institution al Award
        f!.!.!!

                  We do not concur with the finding

                  Condition

                  During award years 2000-2001 and 2001-2002, NACEE used TRiO funds to pay
                  perfonnance award to NACEE em ployees without an established institutional plan.
                  NACEE did not fo llow the requirement to establish an institutional plan for paying
                  perfonnance awards. As a result, TRiO funds totaling 563.500 were improperly used to
                  pay for employee perfonnance awards during award years 2000-200 1 and 2001-2002.

                  Recommendation

                  2. 1   Repay $63,500 for unauthorized perfonnance awards paid to NACEE employees.
                  2.2    Ensure that any future perfonnance awards are based on an institutional award
                         plan.

                  Contact Penon Responsible for Corret:tive Action

                  Mr. Anhur J. Henderson, VP Business Finance, Alabama A&M University (Fiscal
                  Agent)
                  Ms. Evelyn Smith, Office Manager
                  Mr. Roben L. Tibbs, Head Coordinator
                                    ..


                                                      ·2·




ED-OIG/A04-D0001                          FINAL REPORT                                         Page 25 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                     Nortb Alabama Cenler for Educational Excellence' s
                              Response 10 Draft Audit Report
                           Control Number ED-OIG/A04·DOOOI


            Co rr~c !iv~   ,Action Taken or Plan ned

            We do not concur with the finding or the recommendations.

            2. 1     We followed the guideline inasmuch as this is an allowable cost and we followed
                     the guideline as set by the University and indicated in Exhibit A (Annual Merit
                     Step Increases 10.3) and it states as follow. "Employees who have reached the
                     maximum step in the position classification schedule wi!! receive a bonus based
                     on a p<::f"Co:ntage if $0 rc:conum:nuro by the supervisor on performance evaluation
                     n:pons."

             2.2    NACEE has since established an independent performance award plan to be
                    submitted to the Program Officer for approval, and included in the newly revised
                    staIThandbook. (To be completed October 2003)

             Aoticipated Co mpl etion Date
             Revision completed September, 2003; and will be included in the newly revised NACEE
             SlaffHandbook, October 2003.

       Finding No. 3
       NACEE Lacked Documcnl!tion (or an Allowablc Expenditurc

             Condition

             NACEE did not have receipts to suppon a reimbursement paid to the Executive Director
             for meals for a TRiO program trip in July 2002. NAC EE's fiscal agent, Alabama A&M,
             was unable to locate the receipts and NACEE did not keep a copy of the receipts. The
             fiscal agent did not follow its established procedures for obtaining required
             documentation prior to payment. As a resull, there was no documentation 10 suppon
             S9, 113 check paid to the Exc:cutive Director for program partici pant meals during a trip.

             R«ommen dalion

             3. 1   Repay $9, 11 3 (or the un$uppon ed payment to the Exceutive Director for meal
                    reimbursement.
             3.2    Establish management controls to ensure that adequate documentat ion is
                    maintained to suppon allowable costs .




                                     .'



                                                       . ,.




ED-OIG/A04-D0001                           FINAL REPORT                                            Page 26 of 33 

Attachment B – NACEE’s Written Response to the Draft Report




                       North Alabama Center for Educational Excellence's
                                Response to Orart Audit Report
                             Control Number EO~O I G/A04~DOOOI


               Co. nl ael Penon Res ponsible fot Corr«th'e Action

               Mr. Arthur L. Henderson, VP Busine» and Finance Alabama A&M Univel'$ily (Fiscal
               Agenl)
               Ms. Evelyn Smilh. Office Manager
               Mr. Robert L. T ibbs, Head Coord inator

               C o. rnclive Action T a ken o. r Planned
               We concur mat all receipl$ fo.r lhis panieular nip were nol accounted fo.r during the audi t.
               The Business Office was going through a reconstruclion process duri ng this time and
               some docwncnl$ were not readil y avai lab le for review. Ho.wever the panicipalion list for
               the 85 students and chaperons, piCIUfCS, draft, and agenda were provided fo.r review. The
               process that we used for disbUfSemcnl is IS r01lo.WS:

                       Each chaperon was issued mo.ney fo.r each participant's breakfast. lunch and
               dinner fo.r each day. Each participant and chaperon wo.u ld sign each day for thcir meal
               money and the signed receipts were lumed into the UnivenilY at Ihe end of me trip.

               We have located receipts total ing 54,558.00 and arc confident that the remaining receipu
               will be Iocaled. (Co.pics allached)


               3. 1 We do. not concur with the reco.mmendatio.n that the S9.113 was unsupponed and
                    should be reimbursed.
               3.2 Management has established additio.nal eonlrols whereb y addilionai copies or all
                    documenlation will remain wim the Fiscal Agent and NACEE. All revisions have
                    been included in the program manual and the stalThandbook.


               ADlicipaled C ompletio.n Dale
               September 2003 (See Exhi bit C, Program Manual)
               October 2003 (Sta ff Handbook)

        finding No.4
        [IlAC£E Failed to I\'-Io.talo. Activity R eport~ 19 S upport the EI«ullve OIr«lo.r'l TRiO
        Salary Dlstributlo D
        The Ellecutive Director did not maintain mo.nthly lelivily rcpons. but the Coordinators and Staff
        members do maintain monthly aCl ivily rcporiS.

               CoodiU9D

               NACEE did nOI maintain activity rcpons to show the amounl o f time the Executive
               Direclor spent wo..rldng on me rour TRiO programs. As a resull, then: was no ~uppon for



                                                        ...


ED-OIG/A04-D0001                            FINAL REPORT                                                Page 27 of 33 

Attachment B – NACEE’s Written Response to the Draft Report




                     NOr1 h Alabama Center ror Educational Excellence's
                               Response to Drart Audit Repor1
                            Control Number ED·OIGfA04·00OQ I


             (he disrribulion of Ihc Executivc Direclor's salary lOlaling 5)24,164 for award ycan
             2QOO.2001 and 2001·2002.

             Recommsndatlon

             4.1    Submit documentation to suppan thc amount of timc the Executivc Director spc!1t
                    on uch TRiO program, or return 5324,164 in ull$uppaned salary COSI. paid to the
                    Executivc Director during award yean 2QOO.2001 and 2001·2002.
             4.2    Esubli$h policics and procedures for creating and maintaining activity repol1lto
                    l uppon thc El!ocutivc Director'. and Iny other employees' salary distribution
                    when working on mulliplc TRiO programs.




             Mr. Amly L. Danicl, Board Chair
             Mr. Anhur L. Henderson, VP Business and Financc Alabama A&M University (FillCal
             Agcnt)
             MI. Evelyn Smith, Office Managcr
             Mr, Roben 1.. Tibbs, Head Coordinator




             Tablc 4. 1 - Executive Dim:tor's Actual Budgeted Salary as Reponed by !he Fiscal Agent
                                    .                 I




                                                   ., .




ED-OIG/A04-D0001                        FINAL REPORT                                              Page 28 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                  North Alabama Center for Educational Excellence's
                           Response to Dl'"lft Audit Report
                        Control Number ED-OiG/A04-DOOOl

                                                                          ."
          Table 4.2 - Executive Director's Actual   ""'g.'"   Salary as Reponed by the Fiscal Agent




          The staff has always been required to submit monthly activity reports to the Executive
          Director highlighting the activities for the month. In addition to the staff monthly activity
          repom all coordinators had dail y intcrac:tion with the Executive Director regarding each
          program. The Executive Director also conduc:ted weekl y joint Coordinators mectinp and
          program reviews. No activities were imp lemented or executed, or communications
          transmined without prior approval from the Executive Director.

          4.1    While OMS Circular A-122 requires that '"'the distribution of salaries and Wlges
                 10 awards mwt be 51Ipponed by persoMel activity repons ... " traditionally, time
                 cards and documentalion of the work performed by professional and management
                 staff - who are not paid on an hourly buis - is not required under the Fai r Labor
                 Standards Act (FSLA). Paragraphs 7m(1) and (2) Circular A- 122 imposes a
                 serious paper work burden on executive and supervisory stafT that administer
                 federal grants and conU1lcts, despi te the fact that such employees frequently work
                 far in excess of a 40 hour week and dedicate significant time to the administration
                 and implementation of project/grant activit y. NACEE has reconstructed - using
                                      calendar and Program Staff Activity Reports - the
                 PrcsidentlExecutive Director's Monthly Activity in support of each TRIO
                 Program. Alabama A&M University has also provided an accurate allocation of
                                   salary based on the actual time committed (based on the proposed
                 budget) to each project. This documcntation not only properly allocates
                               time, but also justifies the hours conunined to the supervision of
                 staff, project management and community outreach in support of the Jive
                 programs.

           4.2    II is and has been the policy for staff members to maintain monthly activity
                  repons as spelled out in the NACEE Staff Handbook. However the handbook has
                  been newly revised to include monthly 8Clivity report5 from the Executive·
                  Director supporting multiple TRiO programs.




ED-OIG/A04-D0001                         FINAL REPORT                                               Page 29 of 33 

Attachment B – NACEE’s Written Response to the Draft Report




                        North Alabama Center for Educational Excellence's
                                 Response to Draft Audit Report
                              Control Number ED~OIG/A04~DOOOI



               Anticlpate1J Co mpleUnn Dale
               October Z003

         Finding No. 5
         NAC EE Lacked Documentation to Support Rrpnrled Acbievements
         We concur that the auditors did not approve of our method of accountability. The coding system
         we were using would eventually allow us to bttome paperless. We have revised our procedures
         to show a paper trail of all scrvices provided to each participant. These rcvisions will be
         included in the newly revised staff handbook and program manual.

                C ondition

                TRiO program achievemcnts reported in the 2000-2001 and 2001-2002 petformance
                rep<)rts were not adequately supported. NACEE did not have adequate wrinen policies
                and procedures 10 maintain supportin g documentation for services provided to
                participants. In addition. the NACEE computeT system used to track services provided to
                participants could not recreate the information previously rep<)rted in the performance
                rep<)rts. As a result, the Department cannot be sure that NACEE actually provided the
                services reported.

                Recommendation

                5. 1   Establish policies, procedures, and management controls to ens ure that records are
                       maintained for the services provided to participants to clearly demonstrate the
                       specific educational benefit(s) that participants received.
                5.2    Install a performance reponing and management system that will provide for the
                       maintenance and recreation of historical data used to support the pcrfonnaDce
                       inrormation reported to the Department.

                Contact Penon Res ponsible for Corrective Action

                Ms. Evelyn Smith, Office Manager
                Mr. Robert L. Tibbs, Head Coordinator

                Corrective Action Taken   or Planned
                5.1    NACEE has established policies, procedures, and mana~ment controls to ensure
                       that a paper record in addition to the current Code procedure is established on
                       each participant to clearly demonstrate the specific educational hencuI(s) that
                       participant receiVed. (See Exhibit C, Program Manual and Exhibits J-L)




ED-OIG/A04-D0001                          FINAL REPORT                                               Page 30 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                      North Alabama Center for Educational Excellence's
                               Response to Draft Audit Report
                            Control Number EO-OiG/A04-DOOOI


             5.2     We are currently using BLUMEN as a data management system which require
                     some upgrades. We have reviewed the nccessary procedures required to
                     strengthen this system. Le. to include a server for historical data hack-up and on­
                     site training for all stafT members.


             Anticipated Completion Date
             October 2003

       Finding No.6
       NACEE In a~c ura lely Reported TRiO Program Obie~tives and Achievements
       We do not concur. We accurately reported our proposed Objectives and Achievements.

              Condition

              NACEE's TRiO perfonnance reports did not accurately represent the established
              perfonnance objectives or program results. NACEE was not in compliance with
              regulations that require actual achievements for established objectives to be reported. By
              not maintaining supporting documentation for services provide, the Department cannot
              be sure that NACEE actually provided the services reponed.

              Recommendatlon

              6.1    Establish policies, procedures, and management controls to ensure that TRiO
                     program objectives and achievements are accurately reported.

              Contact Person Responsible for Corrective Action

              Ms. Evelyn Smith, Office Manager
              Mr. Robert L. Tibbs, Head Coordinator

              Corrective Action Taken or Planned

              6.1    We have established additional policies, procedures, and management controls to
                     ensure that TRiO program objectives and achievements are accurately reported
                     according to the approved objectives by the Department. These revisions are to
                     be included in the newly revised staff handbook and the program manual (See
                     Exhibit C, Program Manual).

              Anticipated Completion Date
              October 2003 (stalThandbook)
              Septcmber 2003 (prog~m Manual)




                                                      -.   -




ED-OIG/A04-D0001                          FINAL REPORT                                             Page 31 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                     North Alabama Center for Educational Excellence's
                              Response to Draft Audit Report
                           Control Number ED~OIG/A04~DOOOI




       Flllding No.7
       NACEE Did Not Submit OMB Circu lar A-Ill Audits

       We do not concur. The OMB Circulars A-I ll were submitted annually by the Auditing finn
       along with the Fiscal Agents reports.

             Condition

             NACEE did nOI follow EDGAR and Or.m Circular A-J33 regulat ions regarding the
             submission of A-ll3 audits for non-profit organizations. Although NACEE had OMB
             Circular A-13l audits performed, it did not ensure that the independent auditor submitted
             the reports to the Federal Audit Clearinghouse.

              Recommendation

              7.1    Establish management controls to ensure that completed A-J33 audits are
                     submitted to thc Federal Audit Clearinghouse.
              7.2    Timely submit thc complcted FY 2000 and FY 2001 A-J33 audit reports to the
                     Federal Audit Clearinghousc.

              Contlct Penon Responsible ror Corrective Action

              Mr. JcffWhite, Chief Accountant, Banks, Finley and Whitc
              Ms. Evelyn Smith, Office Manager
              Mr. Robert L. Tibbs, Head Coordinator

              Corrective Action T.ken or PI.nned

              7. 1   NACEE has established. management control to ensure that completed. A-I33
                     audits are submitted to the Federal Audit Clearinghouse with a return receipt
                     annually.
              7.2    Armual audit reports will be completed by the Independent auditors and submitted
                     to the Federal Audit Clearinghouse in a timely manner through NACEE with a
                     return receipt requested.

                     All previous requested. years have becn mailed. to the Federal Audit Clearing
                     House; 1201 E l Oth Street, Jeffersonville, Indiana 47132 with a return rece ipt
                     requested.




                                                      -,-




ED-OIG/A04-D0001                         FINAL REPORT                                            Page 32 of 33 

Attachment B – NACEE’s Written Response to the Draft Report



                 North Alabama Center for Educational Excellence's
                          Response to Draft Audit Report
                       Control Number ED-OIG/A04-DOOOI


                We have also enclosed copies to you marked Exblblt M

          Anticipated Completion Date
          September 2003




ED-OIG/A04-D0001                    FINAL REPORT                       Page 33 of 33 

